DEPARTMENT OF HOMELAND SECURITY

    Office of Inspector General

   Evaluation of DHS’ Security Program 

     and Practices For Its Intelligence 

      Systems For Fiscal Year 2007 


            Unclassified Summary 





OIG-07-75                     September 2007
                      1
                                                                     U.S. Department of

                                                                     Homeland Security

                                                                     Washington, DC 20528




                               Office of Inspector General
               Evaluation of DHS’ Security Program and Practices For Its
                     Intelligence Systems For Fiscal Year 2007
                                      OIG-07-75


We conducted an evaluation of the enterprise-wide security program and practices for the
Top Secret/Sensitive Compartmented Information system under the Department of
Homeland Security’s purview. In accordance with Federal Information Security
Management Act of 2002 requirements, our review focused on department’s security
management, implementation, and evaluations aspects of its intelligence activities,
including the policies, procedures, and system security controls in place for its
enterprise-wide intelligence system.

The objective of our evaluation was to determine whether the department is adequately
and effectively protecting Top Secret/Sensitive Compartmented Information and the
system that supports the Department of Homeland Security’s enterprise-wide intelligence
operations and assets. Our independent evaluation concentrated on department-level
intelligence operations. Fieldwork was conducted from June through August 2007.
(OIG-07-75, September 2007, IT)
Additional Information and Copies
To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4199, fax your request to (202) 254-4305, or visit the OIG web
site at www.dhs.gov/oig.


OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of
criminal or noncriminal misconduct relative to department programs or
operations:

    •    Call our Hotline at 1-800-323-8603;
    •    Fax the complaint directly to us at (202) 254-4292;
    •    Email us at DHSOIGHOTLINE@dhs.gov; or
    •	   Write to us at:
           DHS Office of Inspector General/MAIL STOP 2600, Attention:
           Office of Investigations - Hotline, 245 Murray Drive, SW, Building 410,
           Washington, DC 20528.

The OIG seeks to protect the identity of each writer and caller.
